No. 20-794

 

 

In THE
Supreme Court of the United States

SERVOTRONICS, INC.,
Petitioner,
Vv.
ROLLS-ROYCE PLC, et ai.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

BRIEF OF THE CHAMBER OF COMMERCE
OF THE UNITED STATES OF AMERICA AND
BUSINESS ROUNDTABLE AS AMICI CURIAE

IN SUPPORT OF THE RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,935 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 28, 2021.

ul,

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
